CORRECTED AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 19-7
X
SEILA LAW LLC,
Petitioner,
v.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.
X
STATE OF NEW YORK )
COUNTY OF NEW YORK )
I, Noel Reyes, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:
I am retained by Counsel of Record for Amici Curiae.
That on the 22nd day of January, 2020, I served the within Amicus Curiae Brief
in the above-captioned matter upon:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton
& Garrison LLP
Attorneys for Petitioners
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugampaulweiss.com
Noel J. Francisco
Solicitor General
United States Department of Justice
Attorneys for Respondent
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefsusdoj.gov

Paul D. Clement
Kirkland & Ellis LLP
Court-appointed amicus curiae
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(703) 243-9423
naul.clement(@kirkland.com
by depositing three copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository
maintained by the United States Postal Service, via Express Mail.
That on the same date as above, I sent to this Court forty copies and 1 unbound copy of the within Amicus Curiae Brief through the United States Postal
Service by Express Mail, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 22nd day of January, 2020.

Sworn to and subscribed before me this 22' day of January, 2020.

ndez
N ry Pu lic State of New York
No. 24-479 661
Qualified i Kings County
Commissio Expires Aug. 31, 2021

#293924

ro

COUNSEL PRESS

(800) 274.3321 • (800) 359-6859
www.counselpress.com

